No. 20A94

In the Supreme Court of the United States
HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY, INC.,
ITSELF AND ON BEHALF OF ITS MEMBER CHURCHES IN CALIFORNIA,
Applicants,
v.
GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY
AS THE GOVERNOR OF CALIFORNIA,

Respondent.

CERTIFICATE OF SERVICE
I, Paul M. Jonna, a member of the Bar of this Court and counsel for the amici
on the accompany Unopposed Motion by South Bay United Pentecostal Church and
Bishop Arthur Hodges III, with Attached Proposed Amicus Curiae Brief in Support of
Application and in Support of Emergency Application for Writ of Injunction, for Leave
(1) to File the Brief, (2) to Do So in an Unbound Format on 8½-by-11-inch Paper, And
(3) to Do So without Ten Days’ Advance Notice to the Parties, certify that on this 1st
day of December, 2020, caused three copies of the motion and amicus brief to be
served by overnight carrier and electronically on the following:
Mathew D. Staver
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
Liberty Counsel
P.O. Box 540774
Orlando, FL 32853
court@LC.org | hmihet@LC.org
Counsel for applicants

Seth E. Goldstein
Deputy Attorney General
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
Seth.Goldstein@doj.ca.gov
Counsel for respondent

I further certify that all parties required to be served have been served.
________________________
Paul M. Jonna

